   Congressional Response Report



  Disability Denials in 2009 in
Buchanan, Oklahoma, and Dallas
            Counties




      (A-01-13-23072) | April 2014
                                              April 25, 2014


The Honorable Carl Levin
Chairman, Permanent Subcommittee on
 Investigations
Committee on Homeland Security and Government Affairs
United States Senate
Washington, D.C. 20510

Dear Senator Levin:

In a November 5, 2012 letter, you asked for our assistance in ensuring the Social Security
Administration (SSA) is not denying benefits to individuals who deserve them.

My office is committed to conducting reviews that identify areas in which SSA can improve the
effectiveness and efficiency of its programs and operations. Thank you for bringing your
concerns to my attention. The report highlights various facts pertaining to our review of
300 disability cases in Buchanan County, Virginia; Oklahoma County, Oklahoma; and Dallas
County, Alabama. To ensure SSA is aware of the information provided to your office, we are
forwarding a copy of this report to the Agency.

If you have any questions concerning this matter, please call me or have your staff contact
Kristin Klima, Congressional and Intragovernmental Liaison at (202) 358-6319.

                                                    Sincerely,



                                                    Patrick P. O’Carroll, Jr.
                                                    Inspector General

Enclosure

cc:
Carolyn W. Colvin




                WEB: OIG.SSA.GOV | FACEBOOK: OIGSSA | TWITTER: @THESSAOIG | YOUTUBE: THESSAOIG
                          6401 SECURITY BOULEVARD | BALTIMORE, MD 21235-0001
                                              April 25, 2014


The Honorable John McCain
Ranking Member, Permanent Subcommittee on
 Investigations
Committee on Homeland Security and Government Affairs
United States Senate
Washington, D.C. 20510

Dear Senator McCain:

In a November 5, 2012 letter, the Permanent Subcommittee on Investigations asked for our
assistance in ensuring the Social Security Administration (SSA) is not denying benefits to
individuals who deserve them.

My office is committed to conducting reviews that identify areas in which SSA can improve the
effectiveness and efficiency of its programs and operations. Thank you for bringing your
concerns to my attention. The report highlights various facts pertaining to our review of
300 disability cases in Buchanan County, Virginia; Oklahoma County, Oklahoma; and Dallas
County, Alabama. To ensure SSA is aware of the information provided to your office, we are
forwarding a copy of this report to the Agency.

If you have any questions concerning this matter, please call me or have your staff contact
Kristin Klima, Congressional and Intragovernmental Liaison at (202) 358-6319.

                                                    Sincerely,



                                                    Patrick P. O’Carroll, Jr.
                                                    Inspector General

Enclosure

cc:
Carolyn W. Colvin




                WEB: OIG.SSA.GOV | FACEBOOK: OIGSSA | TWITTER: @THESSAOIG | YOUTUBE: THESSAOIG
                          6401 SECURITY BOULEVARD | BALTIMORE, MD 21235-0001
                                              April 25, 2014


The Honorable Tom Coburn, M.D.
Member, Permanent Subcommittee on
 Investigations
Committee on Homeland Security and Government Affairs
United States Senate
Washington, D.C. 20510

Dear Senator Coburn:

In a November 5, 2012 letter, you asked for our assistance in ensuring the Social Security
Administration (SSA) is not denying benefits to individuals who deserve them.

My office is committed to conducting reviews that identify areas in which SSA can improve the
effectiveness and efficiency of its programs and operations. Thank you for bringing your
concerns to my attention. The report highlights various facts pertaining to our review of
300 disability cases in Buchanan County, Virginia; Oklahoma County, Oklahoma; and Dallas
County, Alabama. To ensure SSA is aware of the information provided to your office, we are
forwarding a copy of this report to the Agency.

If you have any questions concerning this matter, please call me or have your staff contact
Kristin Klima, Congressional and Intragovernmental Liaison at (202) 358-6319.

                                                    Sincerely,



                                                    Patrick P. O’Carroll, Jr.
                                                    Inspector General

Enclosure

cc:
Carolyn W. Colvin




                WEB: OIG.SSA.GOV | FACEBOOK: OIGSSA | TWITTER: @THESSAOIG | YOUTUBE: THESSAOIG
                          6401 SECURITY BOULEVARD | BALTIMORE, MD 21235-0001
Disability Denials in 2009 in Buchanan, Oklahoma, and Dallas
Counties
(A-01-13-23072)
April 2014                                                                 Office of Audit Report Summary

Objective                                  Our Findings

To determine whether the Social            In our sample of 300 cases, we found 28 in which SSA (or the
Security Administration (SSA)              DDSs) did not follow some policies and procedures. However,
followed the Social Security Act and its   although SSA did not follow certain policies and procedures, it
regulations, policies, and procedures      correctly denied benefits in these 28 cases based on the evidence
when it denied claims for disability       available for our review.
benefits in 2009 for individuals from
Buchanan County, Virginia; Oklahoma        Below are the policies and procedures SSA did not follow.
County, Oklahoma; and Dallas
County, Alabama.                              Making a reasonable attempt to obtain all relevant evidence
                                               related to a claimant’s condition.
Background
                                              Considering medical opinions.
On November 5, 2012, the Senate
Committee on Homeland Security and            Asking the treating source(s) to conduct a consultative
Government Affairs, Permanent                  examination or ruling the source out.
Subcommittee on Investigations (PSI),
                                              Determining the credibility of the claimant’s statements
requested a review of disability denials
                                               regarding his/her symptoms.
in three specific counties.
                                              Assessing the severity of multiple non-severe impairments in
The Social Security Act defines
                                               combination.
disability as a medically determinable
impairment(s) that prevents an adult          Determining whether the claimant could do past relevant work
from engaging in any substantial               or any other work.
gainful activity and causes a child to
have marked and severe functional
limitations. To carry out the
provisions in the Act, SSA put policies
and procedures in place.

For our review, we determined
whether SSA (including the disability
determination services [DDS])
followed certain policies and
procedures when denying disability
claims.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................5
     SSA Policies and Procedures Not Followed ..............................................................................5
     SSA Denial Determinations that OIG Questioned.....................................................................8
     Cases Adjudicated Using SSA’s Electronic Claims Analysis Tool...........................................9
     Other Improvements to the Initial Disability Determination and Appeals Processes ...............9
Conclusion .....................................................................................................................................10
Appendix A – Congressional Request ........................................................................................ A-1
Appendix B – Evaluating Disability in Adults and Children ..................................................... B-1
Appendix C – Initial Disability Determination and Appeals Processes ..................................... C-1
Appendix D – Scope, Methodology, and Sample Results.......................................................... D-1
Appendix E – Sample Cases with Findings by Title and Denial Reason ...................................E-1
Appendix F – Major Contributors............................................................................................... F-1




Disability Denials in 2009 in Buchanan, Oklahoma, and Dallas Counties (A-01-13-23072)
ABBREVIATIONS
AC                   Appeals Council

Act                  Social Security Act

ALJ                  Administrative Law Judge

CE                   Consultative Examination

C.F.R.               Code of Federal Regulations

CY                   Calendar Year

DDS                  Disability Determination Services

eCAT                 Electronic Claims Analysis Tool

OASDI                Old-Age, Survivors and Disability Insurance

OIG                  Office of the Inspector General

POMS                 Program Operations Manual System

PRW                  Past Relevant Work

PSI                  Permanent Subcommittee on Investigations

RFC                  Residual Functional Capacity

SGA                  Substantial Gainful Activity

SSA                  Social Security Administration

SSI                  Supplemental Security Income

U.S.C.               United States Code




Disability Denials in 2009 in Buchanan, Oklahoma, and Dallas Counties (A-01-13-23072)   1
OBJECTIVE
Our objective was to determine whether the Social Security Administration (SSA) followed the
Social Security Act (Act) and its regulations, policies, and procedures when it denied claims for
disability benefits in 2009 for individuals from Buchanan County, Virginia; Oklahoma County,
Oklahoma; and Dallas County, Alabama.

BACKGROUND
On September 13, 2012, the Senate Committee on Homeland Security and Government Affairs,
Permanent Subcommittee on Investigations (PSI), issued a report on Social Security Disability
Programs: Improving the Quality of Benefit Award Decisions. The PSI sampled 300 disability
allowances and concluded that, in more than 25 percent of the cases, SSA did not properly
address insufficient, contradictory, or incomplete evidence. Based on these findings, on
November 5, 2012, PSI asked us to conduct a similar review of disability denial decisions. See
Appendix A for the request.

SSA provides disability benefits to eligible individuals through its Old-Age, Survivors and
Disability Insurance (OASDI) and Supplemental Security Income (SSI) programs under
Titles II and XVI of the Act. 1 The Act considers an adult disabled if he/she is unable to engage
in any substantial gainful activity (SGA) because of a medically determinable impairment(s) that
can be expected to result in death or has lasted, or can be expected to last, for a continuous
period of not less than 12 months. The Act also considers a child disabled for SSI purposes if
he/she has a medically determinable impairment(s) that causes marked and severe functional
limitations and can be expected to result in death or, has lasted, or can be expected to last, for a
continuous period of not less than 12 months. 2

To determine whether an adult is disabled, SSA’s regulations provide a five-step sequential
evaluation process. This process generally considers whether the claimant

1. is performing SGA,

2. has a severe condition that meets the duration requirement,

3. has a condition that meets or medically equals a listing on SSA’s Listing of Impairments,




1
 The OASDI program covers workers and their dependents or survivors, while the SSI program covers financially
needy individuals. Act §§ 202 et seq., 223 et seq., and 1611 et seq., 42 U.S.C. §§ 402 et seq., 423 et seq., and
1382 et seq.
2
 Act §§ 216(i)(1), 223(d)(1), and 1614(a)(3), 42 U.S.C. §§ 416(i)(1), 423(d)(1), and 1382c(a)(3). See also
20 C.F.R. §§ 404.1505, 416.905, and 416.906.



Disability Denials in 2009 in Buchanan, Oklahoma, and Dallas Counties (A-01-13-23072)                              1
4. can perform past relevant work (PRW), and

5. can perform any other work. 3

SSA’s regulations also provide a similar three-step sequential evaluation process for evaluating
disability in children. 4 For both processes, the adjudicator generally follows the steps in order.
As soon as the adjudicator can make a decision at a step, he/she stops the analysis and makes a
decision. (For more information about these processes, see Appendix B.)

A State disability determination services (DDS) generally makes the initial disability
determination for SSA using SSA’s regulations. If an individual disagrees with the initial
determination, SSA’s regulations give him/her the right to file an appeal within 60 days from the
date of notification of the determination. In most cases, an individual may request up to
four levels of appeal: (1) reconsideration by a DDS, (2) hearing by an administrative law judge
(ALJ), (3) review by the Appeals Council (AC), and (4) review by a Federal Court. 5 (See
Appendix C for more information about the initial disability determination and appeals
processes.)

To carry out the aforementioned regulations, SSA put numerous policies and procedures in
place. For our review, we determined whether SSA (including the DDSs) was following certain
policies and procedures, as described below, when appropriate.

      Determined whether the claimant was performing SGA. SGA is the performance of
       significant physical/mental activities in work for pay or profit or in work of a type generally
       performed for pay or profit. In 2009, employees’ “countable earnings” indicated SGA and
       self-employed individuals’ “countable income” was “substantial” if the amount averaged
       more than $980 per month for non-blind individuals or $1,640 for blind individuals. 6

      Made a reasonable attempt to obtain all relevant evidence related to the claimant’s
       condition. This evidence may include statements from the claimant and other sources about
       the claimant’s impairment(s), restrictions, daily activities, etc. This evidence also includes
       medical records for at least the 12 months before the claimant’s application filing date, unless
       SSA needs to develop for an earlier period or the claimant alleges a disability that began less
       than 12 months before the filing date. 7




3
    20 C.F.R. §§ 404.1520 and 416.920.
4
    20 C.F.R. § 416.924.
5
    Act § 1869 et seq., 42 U.S.C. § 1395ff et seq.
6
 20 C.F.R. §§ 404.1572 and 416.972. See also SSA, POMS, DI 10501.001 (January 5, 2007) and DI 10501.015 B
and C (November 1, 2013).
7
    SSA, POMS, DI 22505.001 (December 17, 2013) and DI 25501.210 C.3 (November 19, 2012).



Disability Denials in 2009 in Buchanan, Oklahoma, and Dallas Counties (A-01-13-23072)                       2
     Considered medical opinions. Medical opinions come from the (1) claimant’s physician,
      psychologist, or other acceptable medical sources or (2) DDS medical/psychological
      consultants. DDS medical/psychological consultants can be physicians, psychologists,
      psychiatrists, optometrists, podiatrists, or speech-language pathologists. At the initial and
      reconsideration levels, these consultants make findings of fact on medical issues, such as the
      existence and severity of an individual’s impairment. At the hearing and AC levels, the ALJ
      and AC treat these findings of fact as opinions and must consider them when making a
      decision about disability. 8

     Resolved conflicts between records from different medical sources. SSA may be able to
      resolve such conflicts by re-contacting the medical sources for additional evidence or having
      the claimant undergo a consultative examination (CE), which is a physical/mental
      examination or test paid for by SSA. 9

     Asked the treating source(s) to conduct a CE or ruled the source(s) out. In addition to
      resolving conflict(s), SSA requests CEs when there is insufficient evidence. A treating
      source is ordinarily preferred to perform the CE because he/she is often in the best position to
      provide detailed information about the nature and severity of a condition. A treating source
      is a claimant’s physician, psychologist, or other acceptable medical source who has provided
      the claimant with ongoing medical treatment or evaluation. 10

     Determined the credibility of a claimant’s statements about his/her symptoms. The
      adjudicator determines whether the claimant has an impairment that could reasonably be
      expected to produce the symptoms he/she alleges based on the objective medical evidence.
      If there is such an impairment, SSA must then assess the claimant’s statements concerning
      the intensity, persistence, and limiting effects of his/her symptoms based on all the
      evidence. 11

     Assessed the severity of multiple non-severe impairments in combination. The adjudicator
      must assess the combined impact of multiple non-severe impairments, rather than the impact
      of each impairment, on the ability to function. 12




8
  20 C.F.R. §§ 404.1616 and 416.1016. See also Social Security Ruling 96-6p: Policy Interpretation Ruling Titles
II and XVI: Consideration of Administrative Findings of Fact by State Agency Medical and Psychological
Consultants and Other Program Physicians and Psychologists at the Administrative Law Judge and Appeals
Council Levels of Administrative Review; Medical Equivalence, July 2, 1996. See also SSA, POMS, DI 24515.002
A.5 (June 13, 2001) and DI 24515.013 (February 14, 2001).
9
    SSA, POMS, DI 22505.008 B (February 28, 2001) and DI 22510.001 A.1 (November 30, 2012).
10
  SSA, POMS, DI 22510.007 A.1 ( November 26, 2012) and DI 22510.010 B.1 (December 20, 2011). See also
SSA, Medical/Professional Relations, http://www.ssa.gov/disability/professionals/bluebook/general-info.htm.
11
     SSA, POMS, DI 24515.066 A (May 13, 1999).
12
     SSA, POMS, DI 22001.015 3 (March 30, 1994).



Disability Denials in 2009 in Buchanan, Oklahoma, and Dallas Counties (A-01-13-23072)                              3
      Made a reasonable effort to obtain relevant work history. Relevant work history refers to
       information on jobs a claimant generally worked over the past 15 years before SSA
       adjudicated his/her claim. Such information includes job descriptions, hours worked in a
       week, pay, type and level of physical and mental activities, etc. 13

      Determined whether the claimant could do PRW. SSA defines PRW as work that was SGA,
       performed during the relevant 15-year period, and performed long enough to learn it. SSA
       determines whether an individual can do PRW by comparing his/her residual functional
       capacity (RFC) to the physical and mental demands of his/her PRW.14

      Determined whether the claimant could do any other work. SSA defines other work as work
       that is SGA and exists in significant numbers in the national economy. SSA will determine
       whether a claimant can do other work if he/she can adjust to it, considering his/her RFC, age,
       education, and work experience. 15

To conduct our review, we randomly selected 300 cases from the populations in Table 1. These
populations are similar to those PSI identified in its review of allowance decisions.

                                              Table 1: Populations
                    Number of Calendar Year 2009
                    Disability Denials for Individuals
                                                                     Level of Adjudication
                    from Buchanan, Oklahoma, and
                             Dallas Counties
                                  3,917                                       Initial
                                  1,784                                  Reconsideration 16
                                    285                                      Hearing
                                    105                                        AC
                                      16                                  Federal Court




13
  SSA, POMS, DI 25001.001 B.65 (March 5, 2013) and SSA, Adult Disability and Work History Report More Info:
How We Decide Whether you Can Do Your Past Work,
http://www.socialsecurity.gov/hlp/radr/10/ent001-app-process3.htm (October 22, 2012).
14
  An individual’s impairment(s), and any related symptoms, such as pain, may cause physical and mental
limitations that affect what he/she can do in a work setting. The RFC is the most the individual can still do despite
these limitations. SSA assesses RFC based on all relevant evidence in the case record. 20 C.F.R. §§ 404.1545 and
416.945. See also SSA, POMS, DI 25001.001 B.60 (March 5, 2013) and DI 25005.001 B (September 19, 2011).
15
     SSA, POMS, DI 22001.030 (September 30, 1991) and DI 25015.001 (July 26, 2011).
16
   SSA eliminated the reconsideration step for individuals living in certain States, as part of its Disability Redesign
Prototype. Dallas County is in one of these States. However, in a few of the Dallas County cases, the individuals
lived in non-Prototype States when they filed their initial disability claims. Therefore, they requested
reconsiderations after SSA denied their initial claims.



Disability Denials in 2009 in Buchanan, Oklahoma, and Dallas Counties (A-01-13-23072)                                     4
For each sample case, we generally reviewed information in the electronic disability folder and
on the Summary Earnings Query, as appropriate. 17 Through this analysis, we identified some
cases in which (a) SSA did not follow some of its policies and procedures, even though it
correctly denied benefits or (b) we questioned the denial determinations, even though the Agency
followed the policies and procedures we tracked. We sent these cases to SSA for review and
confirmation. (For more information on our scope and methodology, see Appendix D.)

RESULTS OF REVIEW
Of the 300 sample cases, we found 28 in which SSA (or the DDSs) did not follow some policies
and procedures. Despite this, the Agency correctly denied benefits to these claimants based on
the evidence we reviewed. In the remaining 272 cases, we found no issues.

SSA Policies and Procedures Not Followed
In 28 cases, SSA did not follow some of its policies and procedures. Table 2 and Table 3
summarize these policies and procedures by adjudicative level and county within which the
claimants lived at the time of adjudication. (See Appendix E for tables that summarize these
policies and procedures by program title and denial reason.)




17
  For initial cases, we generally reviewed the initial level information in the electronic folders. For reconsideration
cases, we generally reviewed the initial and reconsideration level information in the electronic folders. For hearing
cases, we generally reviewed the initial, reconsideration, and hearing level information in the electronic folders. For
the AC and Federal Court cases, we reviewed the same information as we did for the hearing cases since the AC
does not adjudicate the issue of underlying disability, but instead whether there is a basis to grant review of the
hearing decision, and SSA is not responsible for making the Federal Court decisions. 20 C.F.R. §§ 404.970 and
416.1470.



Disability Denials in 2009 in Buchanan, Oklahoma, and Dallas Counties (A-01-13-23072)                                 5
         Table 2: SSA Policies and Procedures Not Followed at Each Adjudicative Level
     SSA Policy and Procedure                                                                    Federal Total
                                        Initial Reconsideration Hearing AC 18
          Not Followed                                                                            Court Cases
                            Cases that Did Not Meet One Policy and Procedure
1. Making a Reasonable
    Attempt to Obtain All
                                       0                 1          3      8                              0        12
    Relevant Evidence Related to
    the Claimant’s Condition
2. Considering Medical
                                       1                 0          1      1                              0         3
    Opinions
3. Asking the Treating
    Source(s) to Conduct a CE or       0                 0          0      2                              0         2
    Ruling the Source(s) Out
4. Determining the Credibility
    of the Claimant’s Statements
                                       0                 2          0      0                              0         2
    Regarding His/Her
    Symptoms
5. Assessing the Severity of
    Multiple Non-severe                2                 2          0      0                              0         4
    Impairments in Combination
6. Determining Whether the
    Claimant Can Do PRW or             0                 0          0      1                              0         1
    Any Other Work
            Subtotal                   3                 5          4     12                              0        24
                   Cases that Did Not Meet More Than One Policy and Procedure
Items 4 and 5 (above)                  0                 1          0      0                              0         1
Items 2 and 4 (above)                  0                 1          0      0                              0         1
Items 1 and 2 (above)                  0                 0          1      0                              0         1
Items 1 and 3 (above)                  0                 0          1      0                              0         1
            Subtotal                   0                 2          2      0                              0         4
Total Cases                            3                 7          6     12                              0        28




18
  Since the AC does not adjudicate the issue of underlying disability, the policies and procedures that were not
followed in these cases were attributable to the hearing level.



Disability Denials in 2009 in Buchanan, Oklahoma, and Dallas Counties (A-01-13-23072)                               6
Table 3: SSA Policies and Procedures Not Followed in Each of the Claimant’s Counties
                                                                                             Total
     SSA Policy and Procedure Not Followed                  Buchanan Oklahoma Dallas
                                                                                             Cases
                         Cases that Did Not Meet One Policy and Procedure
1. Making a Reasonable Attempt to Obtain All
    Relevant Evidence Related to the Claimant’s                  0          8            4      12
    Condition
2. Considering Medical Opinions                                  1          0            2       3
3. Asking the Treating Source(s) to Conduct a CE or
                                                                 0          0           2        2
    Ruling the Source(s) Out
4. Determining the Credibility of the Claimant’s
                                                                 0          2           0        2
    Statements Regarding His/Her Symptoms
5. Assessing the Severity of Multiple Non-severe
                                                                 2          1           1        4
    Impairments in Combination
6. Determining Whether the Claimant Can Do PRW or
                                                                 0          1           0        1
    Any Other Work
                       Subtotal                                  3         12            9      24
                   Cases that Did Not Meet More Than One Policy and Procedure
Items 4 and 5 (above)                                            0          1            0       1
Items 2 and 4 (above)                                            0          1            0       1
Items 1 and 2 (above)                                            0          1            0       1
Items 1 and 3 (above)                                            0          0            1       1
                       Subtotal                                  0          3            1       4
Total Cases                                                      3         15           10      28




Disability Denials in 2009 in Buchanan, Oklahoma, and Dallas Counties (A-01-13-23072)            7
Although SSA did not follow certain policies and procedures in 28 cases, it correctly denied
benefits to the claimants based on the evidence available for our review. Examples follow.

   In July 2009, a claimant from Dallas County, Alabama, applied for disability benefits,
    alleging several conditions, including back problems, a learning disability, and
    obsessive-compulsive disorder. The DDS examiner made a reasonable effort to obtain all the
    medical records. In addition, the DDS examiner had the claimant undergo physical and
    psychological CEs. The report on the psychological CE contained an opinion from the CE
    provider that the claimant likely could understand, carry out, and remember instructions as
    well as respond appropriately to supervision, co-workers, and work pressures. In
    September 2009, the DDS examiner denied the claim for insufficient evidence. When
    making this determination, the DDS examiner did not consider the psychological CE
    provider’s opinion. However, considering such evidence would not have changed the
    determination to deny benefits since the evidence supported such a determination.

   In April 2009, a claimant from Oklahoma County, Oklahoma, requested that his denied
    disability claim be reconsidered, alleging chest pain, low blood pressure, anemia, and
    depression. The DDS examiner determined these impairments were not severe and therefore
    denied the claim in June 2009. In determining severity, the examiner assessed the impact of
    each impairment separately, rather than the combined impact of the impairments, on the
    claimant’s ability to function, as required by policy. However, had the examiner followed
    policy, the determination would not have changed. In July 2009 and June 2010, the claimant
    requested a hearing and an AC review, respectively. The ALJ issued an unfavorable
    decision, and the AC found no reason to review the ALJ’s decision.

   In January 2007, a claimant from Oklahoma County, Oklahoma, requested a hearing after he
    received a denial determination on his reconsideration. He alleged various impairments,
    including a learning disability, bipolar disorder, and knee problems. The claimant submitted
    medical records from all but two of his sources, and the hearing office did not make a
    reasonable effort to obtain the records from these two sources. These two sources treated the
    claimant for his knee problem as did many of the other sources. In January 2009, the ALJ
    issued an unfavorable determination. Since the hearing office had some of the medical
    records on how the knee problem was treated, the missing medical records would not have
    changed the determination.

SSA Denial Determinations that OIG Questioned
In 3 of the 300 sample cases, we questioned the denial determinations, even though SSA
followed the policies and procedures we tracked. SSA reviewed these cases and informed us the
determinations were correct.

In one case, the claimant complained of pain in her shoulders, back, and legs. She stated that
such activities as lifting, standing, and sitting were very limited because of pain. The DDS
examiner determined the claimant was not disabled. However, the ALJ determined the claimant
was disabled, even though he did not hold a hearing and essentially used the same evidence as


Disability Denials in 2009 in Buchanan, Oklahoma, and Dallas Counties (A-01-13-23072)            8
the DDS examiner. We sent this case to SSA to assist us in determining whether the initial
determination was correct.

According to SSA, both determinations were correct. The adjudicators made different
determinations because some of the policies and procedures followed involved a certain degree
of judgment. For example, since the objective medical evidence on file showed the claimant had
impairments that could reasonably be expected to produce pain, the adjudicators had to assess
her statements concerning her symptoms’ intensity, persistence, and limiting effects based on all
the evidence in file. The DDS examiner found those statements only partially credible, while the
ALJ found them generally credible. According to SSA, “This is an example where two
independent adjudicators can reasonably come to different conclusions when considering all the
evidence.”

Cases Adjudicated Using SSA’s Electronic Claims Analysis Tool
SSA’s electronic claims analysis tool (eCAT) is a Web-based application designed to document
a disability adjudicator’s analysis and ensure the adjudicator considers all relevant Agency
policies when making a disability determination. Only 51 of our cases from Buchanan County,
Virginia, were adjudicated at the initial or reconsideration levels using eCAT since the Virginia
DDS was the only 1 among the components responsible for our cases that had eCAT at the time
of adjudication. In these 51 cases, we found the DDS followed all the policies and procedures
we tracked—which is similar to what we found in a prior review. 19 Hence, among the 300 cases
in our sample, cases documented using eCAT were more likely to follow SSA’s policies and
procedures than cases adjudicated without eCAT. Since SSA adjudicated our sample cases in
2009, the Agency had implemented eCAT in all DDSs and was developing a similar tool, known
as the Electronic Bench Book, for hearing offices. 20

Other Improvements to the Initial Disability Determination and
Appeals Processes
The Agency has also made other improvements to the initial disability determination and appeals
processes. These improvements include the development of hearing decision reviews that
comprised the following reviews.

      Pre-effectuation reviews of randomly selected cases. These reviews measure ALJ
       performance and change ALJ decisions if appropriate.

      Post-effectuation focused quality reviews based on identified anomalies or randomly selected
       cases. For these reviews, SSA may analyze (1) the work of individual adjudicators or other
       participants in the hearing process (such as medical examiners or claimant representatives) or



19
     SSA OIG, The Effects of the Electronic Claims Analysis Tool (A-01-11-21193), July 2011.
20
     We plan to start a review of hearing offices’ use of the Electronic Bench Book.



Disability Denials in 2009 in Buchanan, Oklahoma, and Dallas Counties (A-01-13-23072)               9
       (2) specific issues (such as those involving certain impairments or hearing dismissals). Since
       these reviews are post-effectuation, they generally do not change the hearing decisions. 21

The pre- and post-effectuation reviews provide feedback to adjudicators and address concerns in
particular cases. Furthermore, SSA informed us these reviews support consistent, legally
sufficient, and policy compliant decisionmaking by identifying recurrent decision making issues
that can be addressed through training, policy clarification, procedural changes, or software.

In addition to these reviews, SSA developed the Disability Information Gateway Resource tool,
which consolidates all links to disability resources and training materials into a searchable
database, and the CE policy tool, which contains all CE policy related to the development and
review of CE evidence. Both tools are in a central location that disability adjudicators at all
levels can use for their resource and training needs. 22

CONCLUSION
In some of our sample cases, SSA did not follow all of its policies and procedures. Despite this,
the Agency correctly denied benefits to the claimants based on the information we reviewed.
Since adjudicating these cases in 2009, the Agency has made improvements to the initial
disability determination and appeals processes, which SSA developed to promote the consistent
application of policies and procedures and enhance the accuracy of disability determinations at
each adjudicative level.




21
  SSA OIG, The Social Security Administration’s Review of Administrative Law Judges’ Decisions
(A-07-12-21234), March 2012 and Identifying and Monitoring Risk Factors at Hearing Offices (A-12-12-11289),
January 2013 .
22
     SSA OIG, Training at Offices that Make Disability Determinations (A-01-11-21169), March 2012.



Disability Denials in 2009 in Buchanan, Oklahoma, and Dallas Counties (A-01-13-23072)                         10
                                       APPENDICES




Disability Denials in 2009 in Buchanan, Oklahoma, and Dallas Counties (A-01-13-23072)
Appendix A – CONGRESSIONAL REQUEST




Disability Denials in 2009 in Buchanan, Oklahoma, and Dallas Counties (A-01-13-23072)   A-1
Appendix B – EVALUATING DISABILITY IN ADULTS AND
             CHILDREN
The Social Security Act (Act) considers an adult to be disabled if he/she is unable to engage in
any substantial gainful activity (SGA) 1 because of a medically determinable physical or mental
impairment (or combination of impairments) that can be expected to result in death or that has
lasted, or can be expected to last, for a continuous period of not less than 12 months. 2

The Social Security Administration (SSA) has a five-step sequential process for evaluating
disability for adults that generally follows the definition of disability in the Act (see Figure B-1). 3
SSA generally follows the steps in order. As soon as SSA can make a decision at a step, the
analysis stops, and SSA makes a decision.

At Step 1, SSA generally considers whether the claimant is performing SGA. If the claimant is
performing SGA, SSA finds him/her not disabled, regardless of the severity of his/her
impairments. If the claimant is not performing SGA, SSA generally requests all the evidence
needed for consideration at Steps 2 through 5.

At Step 2, SSA determines whether the claimant’s impairment—or combination of
impairments—is severe. 4 If the claimant does not have a severe medically determinable
impairment(s) that meets the duration requirement, SSA denies the claim. If the claimant has a
severe medically determinable impairment(s) that meets the duration requirement, the Agency
goes to Step 3 and looks to the Listing of Impairments. If the severity of the impairment meets
or medically equals a specific listing and meets the duration requirement, SSA determines the
individual to be disabled.

If the individual’s impairment does not meet or medically equal a listing or does not meet the
duration requirement, the Agency goes to Step 4, and, if necessary, Step 5. At Step 4, the
Agency determines whether the claimant can perform any past relevant work (PRW) 5 by


1
  SGA means the performance of significant physical and/or mental activities in work for pay or profit, or in work of
a type generally performed for pay or profit. In 2009, “countable earnings” of employees indicated SGA and
“countable income” of self-employed individuals was “substantial” if the amount averaged more than $980 per
month for non-blind individuals or $1,640 for blind individuals. 20 C.F.R. §§ 404.1572 and 416.972. See also SSA,
POMS, DI 10501.001 (January 5, 2007) and DI 10501.015 B and C (November 1, 2013).
2
 Act §§ 216(i)(1), 223(d)(1)(A), and 1614(a)(3)(A), 42 U.S.C. §§ 416(i)(1), 423(d)(1)(A), 1382c(a)(3)(A). See also
20 C.F.R. §§ 404.1505 and 416.905.
3
    20 C.F.R. §§ 404.1520 and 416.920.
4
 20 C.F.R. §§ 404.1520(c), 404.1521, 416.920(c) and 416.921. An impairment or combination of impairments is
not severe if it does not significantly limit an individual’s physical or mental ability to do basic work activities. See
also Social Security Ruling 85-28, Titles II and XVI: Medical Impairments that are Not Severe.
5
 SSA defines PRW as work that was SGA, generally performed within the 15-year period before the date of
adjudication, and performed long enough to learn it. 20 C.F.R. §§ 404.1560(b)(1), and 404.1565(a), 416.960(b)(1),
and 416.965(a).



Disability Denials in 2009 in Buchanan, Oklahoma, and Dallas Counties (A-01-13-23072)                                 B-1
comparing his/her residual functional capacity (RFC) 6 to the PRW’s physical and mental
demands as the claimant performed it or as it is normally performed in the national economy. If
the claimant can perform PRW, SSA denies the claim. If the claimant cannot perform PRW,
SSA goes to Step 5 and determines whether the claimant can perform any other substantial
gainful work that exists in the national economy, considering his/her RFC, age, education, and
past work experience. If the claimant can perform any other work, then SSA finds him/her not
disabled; if the claimant cannot perform any other work, SSA finds him/her disabled.

Figure B-1: SSA’s Five-Step Sequential Evaluation Process for Determining Disability for
                                        Adults

                               Yes               Step 1: SGA
                                      Is the claimant engaging in SGA?

                                                           No
                                             Step 2: Medical Severity
                               No     Does the claimant have a severe medically
                                      determinable impairment(s) that meets the
                                                duration requirement?

                                                         Yes
                      Not                                                            Yes
                                                   Step 3: Listings                           Disabled
                    Disabled          Does the claimant have an impairment(s)
                                      that meets or equals a listing and meets the
                                      duration requirement?

                                                          No

                               No              Step 4: Previous Work
                                      Does the impairment(s) prevent the
                                      claimant from doing any PRW?


                                                          Yes
                               No                 Step 5: Other Work                 Yes
                                      Does the impairment(s) prevent the
                                      claimant from doing any other work that
                                      exists in the national economy?




6
  An individual’s impairment(s), and any related symptoms, such as pain, may cause physical and mental limitations
that affect what he/she can do in a work setting. The RFC is the most the individual can still do despite these
limitations. SSA assesses RFC based on all relevant evidence in the case record. 20 C.F.R. §§ 404.1545 and
416.945.




Disability Denials in 2009 in Buchanan, Oklahoma, and Dallas Counties (A-01-13-23072)                         B-2
The Act considers an individual under age 18 disabled for Supplemental Security Income (SSI)
purposes if he/she has a medically determinable physical or mental impairment or combination
of impairments that causes marked and severe functional limitations and can be expected to
result in death, or that has lasted, or can be expected to last, for a continuous period of not less
than 12 months. 7

As shown in Figure B–2, SSA has a similar sequential process with three steps for evaluating
disability in children under SSI. 8 Steps 1 and 2 are the same as for adults, with “severe” defined
in terms of age-appropriate childhood functioning instead of basic work-related activities. At
Step 3, SSA determines whether the impairment(s) meets or medically equals a listing or
functionally equals the listings and meets the duration requirement.

    Figure B–2: SSA’s Three-Step Sequential Evaluation Process for Determining Disability
                                      for Children

                               Yes                     Step 1: SGA
                                            Is the claimant engaging in SGA?


                                                          No
                                                Step 2: Medical Severity
                               No       Does the claimant have a severe medically
                                        determinable impairment(s) that meets the
                                        duration requirement?


                                                          Yes
                                 No                                                   Yes   Disabled
                      Not
                                                     Step 3: Listings
                    Disabled
                                         Does the claimant have an impairment(s)
                                        that meets or medically equals a listing or
                                        functionally equals the Listings and meets
                                                the duration requirement?




7
    Act § 1614(a)(3)(C), 42 U.S.C. § 1382c(a)(3)(C). See also 20 C.F.R. § 416.906.
8
    20 C.F.R. § 416.924.



Disability Denials in 2009 in Buchanan, Oklahoma, and Dallas Counties (A-01-13-23072)                  B-3
Appendix C – INITIAL DISABILITY DETERMINATION AND
             APPEALS PROCESSES
Initial Disability Determination Process
State-run disability determination services (DDS) generally make the initial disability
determinations for the Social Security Administration (SSA). SSA reimburses the States for all
allowable DDS expenses and oversees the quality of the DDS’ work. At most DDSs, a disability
adjudicatory team comprised of an examiner and medical/psychological consultant 1 uses SSA’s
regulations to request the relevant medical and other evidence and evaluates the evidence to
determine whether a claimant meets the definition of disability under the Social Security Act.

Appeals Process
If the claimant disagrees with the initial determination, he/she can file an appeal within 60 days
from the date of notification of the determination. In most cases, an individual may request up to
four levels of appeal: reconsideration, hearing, Appeals Council (AC) review, and Federal Court
review. 2

Reconsideration
A disability adjudicatory team that did not make the initial determination will evaluate all
existing relevant evidence plus any additional evidence submitted and make a new
determination.

Hearing
An administrative law judge (ALJ) generally conducts a hearing at a hearing office. Before the
hearing, the claimant and his/her representative may examine the evidence used in making the
determination under appeal and submit new evidence. At the hearing, the ALJ can question the
claimant and any witnesses the claimant brings. The ALJ may request other witnesses, such as
medical or vocational experts, to testify at the hearing. The claimant and his/her representative
may also question the witnesses.




1
  Medical/psychological consultant refers to physicians, psychologists, psychiatrists, optometrists, podiatrists, and
speech-language pathologists employed by the DDS. 20 C.F.R. §§ 404.1616 and 416.1016. See also SSA, POMS,
DI 24501.001 B 2 (January 7, 2013). At DDSs that use single decision-makers, a disability examiner can make the
disability determination in many cases without approval of a medical/psychological consultant. On
November 12, 2010, the Agency implemented a regulation to allow all State disability examiners to make fully
favorable determinations in certain cases without the approval of a medical/psychological consultant.
20 C.F.R. §§ 404.1615(c)(3) and 416.1015(c)(3). See also SSA, POMS, DI 23023.001 (December 9, 2013).
2
    20 C.F.R. §§ 404.900 through 404.985 and 416.1400 through 416.1485.



Disability Denials in 2009 in Buchanan, Oklahoma, and Dallas Counties (A-01-13-23072)                             C-1
The ALJ does not determine whether the DDS’ decision was correct but issues a new (de novo)
decision based on the evidence. If the claimant waives the right to appear at the hearing, the ALJ
makes a decision based on the evidence on file and any new evidence submitted for
consideration. The ALJ may also decide on his/her own not to hold a hearing if he/she can make
a fully favorable determination based on such evidence.

Under certain circumstances, an SSA attorney advisor may conduct proceedings before the
hearing. As part of the prehearing proceedings, the attorney advisor, in addition to reviewing the
existing record, may request additional evidence and schedule a conference with the parties. If
after completing these proceedings the attorney advisor can make a fully favorable decision, an
attorney advisor may issue the decision. 3

AC Review
The AC consists of administrative appeal judges and appeal officers. A claimant who is
dissatisfied with the hearing office decision can ask the AC to review that decision. The AC may
deny, dismiss, or grant a request for review. If the AC denies or dismisses the request for
review, the hearing office decision becomes SSA’s final decision. If the AC grants the request
for review, it can (1) issue its own decision affirming, modifying, or reversing the hearing office
decision or (2) remand the case to the hearing office for a new decision, additional evidence, or
other action. If the AC issues its own decision, that decision becomes SSA’s final decision. The
AC may also review a case within 60 days of the hearing office decision on its own motion; that
is, without a claimant requesting the review.

Federal Court Review
If a claimant is dissatisfied with SSA’s final decision, he/she may file a civil action with the U.S.
District Court. The U.S. District Court has the power to dismiss, affirm, modify, or reverse
SSA’s final decision and may remand the case to SSA for further action, including a new
decision. 4 If SSA’s final decision is supported by “substantial evidence” and consistent with the
Social Security Act, the court should affirm the decision. 5 If the U.S. District Court does not find
in favor of the claimant, he/she can appeal to the U.S. Court of Appeals (Circuit Court) and
ultimately to the U.S. Supreme Court.




3
    20 C.F.R. §§ 404.942 and 416.1442.
4
    SSA Handbook § 2014 (November 30, 2010).
5
    Act § 205(g), 42 U.S.C. § 405(g). See also SSA, HALLEX, I-3-3-4 (September 8, 2005).



Disability Denials in 2009 in Buchanan, Oklahoma, and Dallas Counties (A-01-13-23072)             C-2
Appendix D – SCOPE, METHODOLOGY, AND SAMPLE RESULTS
To accomplish our objective, we:

     Reviewed applicable sections of the Social Security Administration’s (SSA) laws,
      regulations, rules, and procedures.

     Reviewed prior Office of the Inspector General reports related to the disability programs.

     Reviewed the Permanent Subcommittee on Investigations (PSI) report, Social Security
      Disability Programs: Improving the Quality of Benefit Award Decisions, September 2012.

     Analyzed files of cases containing all disability decisions made in Calendar Year (CY) 2009,
      which we identified in a prior review. 1 From these files and other SSA records (such as the
      Master Beneficiary Record, Supplemental Security Record, and Office of Hearing and
      Appeals Query), we obtained the disability denial cases and the ZIP codes for the claimants
      in most of these cases. With the ZIP codes, we identified the separate populations shown in
      Table D–1.

                                            Table D–1: Populations
                  Number of CY 2009 Disability
                   Denials for Individuals from
                                                                   Level of Adjudication
                   Buchanan, Oklahoma, and
                         Dallas Counties
                              3,917                                        Initial
                              1,784                                   Reconsideration 2
                                285                                       Hearing
                                105                                 Appeals Council (AC)
                                 16                                    Federal Court

     Selected samples from these populations using the same sampling plan that PSI used in its
      review. The sampling plan had the following requirements.

1. Select 100 cases from each county, for a total of 300 cases.

2. For each set of 100 cases, select 20 from each level of adjudication.



1
    SSA OIG, Overall Disability Claim Times for 2009 (A-01-10-10168), May 2011.
2
  SSA eliminated the reconsideration step for individuals living in certain States, as part of its Disability Redesign
Prototype. Dallas County is in one of these States. However, in a few of the Dallas County cases, the individuals
lived in non-Prototype States when they filed their initial disability claims. Therefore, they requested
reconsiderations after SSA denied their initial claims.



Disability Denials in 2009 in Buchanan, Oklahoma, and Dallas Counties (A-01-13-23072)                                D-1
3. For each set of 20 cases,

          At least 15 involve adults who applied for Old-Age, Survivors and Disability Insurance
           (OASDI) or both OASDI and Supplemental Security Income (SSI) payments.

          The remaining cases involve children who applied for SSI payments.

4. Also, for each set of 20 cases,

          at least 5 have a diagnosis of Intellectual Disability, 3

          at least 5 have a diagnosis of Other Mental Disorders,

          at least 5 have a diagnosis of Musculoskeletal System and Connective Tissue, and

          the remaining cases have other diagnoses from SSA’s Listings of Impairments.

Since we did not have enough cases that met all the sampling requirements, we adjusted the plan
similar to the adjustments PSI made in its review. Specifically, when there were not enough
cases in a particular diagnostic category and adjudicative level, we replaced these cases with

1. cases from another diagnostic category at the same adjudicative level,

2. adult SSI-only cases at the same adjudicative level, or

3. cases from a prior adjudicative level when Steps 1 and 2 were not possible or did not resolve
   the issue.

For each case, we reviewed information in the claimant’s electronic disability folder and on
his/her Summary Earnings Query, as appropriate. 4 When there was insufficient information in
SSA’s electronic disability folder, we replaced the case with another that had the same
requirements. Sometimes, this was not possible because of the limited availability of cases
within certain diagnostic categories and adjudicative levels. In this situation, we followed
Steps 1 through 3 above. See Table D–2 through Table D–4 for the sample sizes we used for
each county.




3
    In 2013, SSA replaced the term “mental retardation” with the term “intellectual disability.”
4
 For initial cases, we generally reviewed the initial level information in the electronic folders. For reconsideration
cases, we generally reviewed the initial and reconsideration level information in the electronic folders. For hearing
cases, we generally reviewed the initial, reconsideration, and hearing level information in the electronic folders. For
AC and Federal Court cases, we reviewed the same information as we did for the hearing cases since the AC does
not adjudicate the issue of underlying disability, but instead whether there is a basis to grant review of the hearing
decision, and SSA is not responsible for making the Federal Court decisions. 20 C.F.R. §§ 404.970 and 416.1470.



Disability Denials in 2009 in Buchanan, Oklahoma, and Dallas Counties (A-01-13-23072)                              D-2
          Table D–2: Buchanan County Sample by Level, Benefit Type, Age Group, and Diagnosis 5
                                 Diagnosis for Adults (>/= age 18)                Diagnosis for Children (< age 18)
 Level/Benefit Type         Intellectual    Other     Musculo-              Intellectual    Other      Musculo-              Total
                                                                   Other                                            Other
                             Disability     Mental    skeletal               Disability     Mental     skeletal
                  T2/CC 6               1        7             5        4              0           0            0       0
  Initial                                                                                                                       20
                   T16 7                0        0             0        0              1           1            0       1
                                                                        4
                  T2/CC                 1        7      5 (+17)                        0           0            0       0
Reconsider-                                                         (+20)
                                                                                                                                57
   ation
                   T16                  1        0             0        0              1           0            0       1

                  T2/CC                 0        3             7        5              0           0            0       0
 Hearing                                                                                                                        15
                   T16                  0        0             0        0              0           0            0       0

                  T2/CC                 0        1             2        3              0           0            0       0
   AC                                                                                                                            6
                   T16                  0        0             0        0              0           0            0       0

                  T2/CC                 0        0             2        0              0           0            0       0
  Federal
                                                                                                                                 2
   Court
                   T16                  0        0             0        0              0           0            0       0
          Total                         3       18           38        36              2           1            0       2      100




      5
          We replaced hearing, AC, and Federal Court cases with reconsideration cases in red font in parenthesis.
      6
          T2 refers to OASDI benefits and CC refers to concurrent cases, which have both OASDI and SSI payments.
      7
          T16 refers to SSI payments.



      Disability Denials in 2009 in Buchanan, Oklahoma, and Dallas Counties (A-01-13-23072)                            D-3
        Table D–3: Oklahoma County Sample by Level, Benefit Type, Age Group, and Diagnosis 8
                                Diagnosis for Adults (>/= age 18)                Diagnosis for Children (< age 18)
Level/Benefit Type         Intellectual   Other      Musculo-              Intellectual   Other     Musculo-               Total
                                                                  Other                                          Other
                            Disability    Mental     skeletal               Disability    Mental    skeletal
                  T2/CC               4          4            4        4              0         0            0       0
  Initial                                                                                                                     20
                   T16                0          0            0        0              1         1            1       1

                  T2/CC               4          4            4        4              0         0            0       0
Reconsider-
                                                                                                                              20
   ation
                   T16                0          0            0        0              0         2            1       1

                  T2/CC               0         10            5        5              0         0            0       0
 Hearing                                                                                                                      20
                   T16                0          0            0        0              0         0            0       0

                  T2/CC               0    10 (+2)      5 (+11)   3 (+4)              0         0            0       0
   AC                                                                                                                         40
                   T16                0       (+2)         (+1)        0              0         0            0       2

                  T2/CC               0          0            0        0              0         0            0       0
  Federal
                                                                                                                               0
   Court
                   T16                0          0            0        0              0         0            0       0
          Total                       8         32          30        20              1         3            2       4       100




      8
          We replaced Federal Court cases with AC cases in red font in parenthesis.



      Disability Denials in 2009 in Buchanan, Oklahoma, and Dallas Counties (A-01-13-23072)                          D-4
          Table D–4: Dallas County Sample by Level, Benefit Type, Age Group, and Diagnosis 9
                                Diagnosis for Adults (>/= age 18)              Diagnosis for Children (< age 18)
  Level/Benefit Type       Intellectual   Other      Musculo-              Intellectual   Other     Musculo-                   Total
                                                                 Other                                           Other
                            Disability    Mental     skeletal               Disability    Mental    skeletal
                  T2/CC               4     4 (+8)      4 (+4)    4 (+2)              0         0            0           0
    Initial                                                                                                                      38
                   T16                0          0           0         0         1 (+1)    1 (+1)       1 (+1)   1 (+1)

                  T2/CC               0          0           0         2              0         0            0           0
Reconsideration                                                                                                                   3
                   T16                0          0           0         0              0         0            0           1
                                                                      5
                  T2/CC               0   10 (+1)       5 (+9)                        0         0            0           0
                                                                  (+11)
   Hearing                                                                                                                       41
                   T16                0          0           0         0              0         0            0           0

                  T2/CC               0          1           6    5 (+1)              0         0            0           0
     AC                                                                                                                          18
                   T16                1          1           0         0              0         0            0           3

                  T2/CC               0          0           0         0              0         0            0           0
 Federal Court                                                                                                                    0
                   T16                0          0           0         0              0         0            0           0
          Total                       5        25           28       30               2         2            2           6      100

     For each case, we determined whether SSA followed these policies and procedures, when
     appropriate.

         Determined whether the claimant was performing substantial gainful activity (SGA). 10
         Made a reasonable attempt to obtain all relevant evidence related to the claimant’s condition.
         Considered medical opinions.
         Resolved conflicts between records from different medical sources.




     9
      We replaced reconsideration cases with initial cases, AC court cases with initial and hearing cases, and Federal
     Court cases with hearing and AC cases. All replacements are in red font in parenthesis.
     10
       SGA means the performance of significant physical and/or mental activities in work for pay or profit, or in work
     of a type generally performed for pay or profit. In 2009, “countable earnings” of employees indicated SGA and
     “countable income” of self-employed individuals was “substantial” if the amount averaged more than $980 per
     month for non-blind individuals or $1,640 for blind individuals. 20 C.F.R. §§ 404.1572 and 416.972. See also SSA,
     POMS, DI 10501.001 (January 5, 2007) and DI 10501.015 B and C (November 1, 2013).



     Disability Denials in 2009 in Buchanan, Oklahoma, and Dallas Counties (A-01-13-23072)                               D-5
      Asked the treating source(s) to conduct a consultative examination or ruled the source(s)
       out. 11
      Determined the credibility of a claimant’s statements regarding his/her symptoms.
      Assessed the severity of the claimant’s multiple non-severe impairments in combination.
      Made a reasonable effort to obtain a claimant’s relevant work history. 12
      Determined whether the claimant could do past relevant work or any other work.
      Notified the claimant that the ALJ may dismiss the hearing if he/she or the appointed
       representative does not appear at the hearing. 13
      Attempted to establish a good reason for the claimant or appointed representative not
       appearing at the hearing.
      Received a written request to withdraw the claim.

Through this analysis, we identified 42 cases in which it appeared SSA (a) did not follow some
of its policies and procedures, even though it correctly denied benefits or (b) incorrectly denied
benefits, even though the Agency followed the policies and procedures we tracked. We sent
these 42 cases to SSA for review and confirmation.

We conducted our audit from November 2012 through December 2013 in Boston,
Massachusetts. The entities audited were the field offices, disability determination services, and
payment service centers under the Office of the Deputy Commissioner for Operations; Disability
Quality Branches under the Office of Deputy Commissioner for Budget, Finance, Quality, and
Management; and ALJs and AC under the Office of the Deputy Commissioner for Disability
Adjudication and Review. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We tested the data obtained for our audit and
determined them to be sufficiently reliable to meet our objective. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objective.




11
  A consultative examination is a physical/mental examination or test that SSA requests at its expense when there is
insufficient or conflicting evidence in a case. SSA, POMS, DI 22510.001 (November 30, 2012).
12
  Relevant work history refers to information on jobs a claimant generally worked over the past 15 years before
SSA adjudicated his/her claim. Such information includes job descriptions, hours worked in a week, pay, type and
level of physical/mental activities, etc. SSA, POMS, DI 25001.001 B.65 (March 5, 2013) and SSA, Adult Disability
and Work History Report More Info: How We Decide Whether you Can Do Your Past Work,
http://www.socialsecurity.gov/hlp/radr/10/ent001-app-process3.htm (October 22, 2012).
13
     For the purposes of this review, we considered dismissals as a type of denial.



Disability Denials in 2009 in Buchanan, Oklahoma, and Dallas Counties (A-01-13-23072)                           D-6
Appendix E – SAMPLE CASES WITH FINDINGS BY TITLE AND
             DENIAL REASON
The Social Security Administration (SSA) provides disability benefits to eligible individuals
through its Old-Age, Survivors and Disability Insurance (OASDI) and Supplemental Security
Income (SSI) programs under Titles II and XVI of the Social Security Act (Act). 1 The Act
considers an adult disabled if he/she is unable to engage in any substantial gainful activity
(SGA) 2 because of a medically determinable impairment(s) that can be expected to result in
death or, has lasted, or can be expected to last, for a continuous period of not less than
12 months. The Act also considers a child disabled for SSI purposes if he/she has a medically
determinable impairment(s) that causes marked and severe functional limitations and can be
expected to result in death or, has lasted, or can be expected to last, for a continuous period of
not less than 12 months. 3 To determine whether an individual is disabled, SSA is required to
follow certain policies and procedures, which stem from the definitions of disability.

We sampled 300 disability denials and found that, in 28 cases, SSA did not follow some of its
policies and procedures. Despite this, the Agency correctly denied benefits to the claimants
based on the evidence available for our review. Table E–1 and Table E–2 summarize these cases
by title and denial reason.




1
 The OASDI program covers workers and their dependents or survivors, while the SSI program covers financially
needy individuals. Act §§ 202 et seq., 223 et seq., and 1611 et seq., 42 U.S.C. §§ 402 et seq., 423 et seq., and
1382 et seq.
2
  SGA means the performance of significant physical and/or mental activities in work for pay or profit, or in work of
a type generally performed for pay or profit. In 2009, "countable earnings" of employees indicated SGA and
"countable income" of the self-employed was "substantial" if the amount averaged more than $980 per month for
non-blind individuals or $1,640 for blind individuals. 20 C.F.R. §§ 404.1572 and 416.972. See also SSA, POMS,
DI 10501.001 (January 5, 2007) and DI 10501.015 B and C (November 1, 2013).
3
 Act §§ 216(i)(1), 223(d)(1), and 1614(a)(3), 42 U.S.C. §§ 416(i)(1), 423(d)(1), and 1382c(a)(3). See also
20 C.F.R. §§ 404.1505, 416.905, and 416.906.



Disability Denials in 2009 in Buchanan, Oklahoma, and Dallas Counties (A-01-13-23072)                            E-1
                                  Table E–1: Cases with Findings by Title4
         SSA Policy and Procedure Not Followed                Title II       Title XVI     Concurrent   All Cases
                                 Cases that Did Not Meet One Policy and Procedure
    1.   Making a Reasonable Attempt to Obtain all
         Relevant Evidence Related to the Claimant’s              4           0                     8           12
         Condition
    2.   Considering Medical Opinions                             0           0                     3            3
    3.   Asking the Treating Source(s) to Conduct a
         Consultative Examination or Ruling the                   1           0                     1            2
         Source(s) Out 5
    4.   Determining the Credibility of the Claimant’s
                                                                  0           0                     2            2
         Statements Regarding His/Her Symptoms
    5.   Assessing the Severity of Multiple Non-severe
                                                                  1           0                     3            4
         Impairments in Combination
    6.   Determining Whether the Claimant Can Do Past
                                                                  1           0                     0            1
         Relevant Work (PRW) or Any Other Work
                            Subtotal                                     7             0           17           24
                            Cases that Did Not Meet More Than One Policy and Procedure
    Items 4 and 5 (above)                                       0             0                     1            1
    Items 2 and 4 (above)                                       0             0                     1            1
    Items 1 and 2 (above)                                       0             0                     1            1
    Items 1 and 3 (above)                                       0             0                     1            1
                            Subtotal                                     0             0            4            4
    Total                                                                7             0           21           28




4
    Concurrent beneficiaries receive both titles II and XVI benefits simultaneously.
5
  A consultative examination is a physical/mental examination or test that SSA requests at its expense when there is
insufficient or conflicting evidence in a case. SSA, POMS, DI 22510.001 (November 30, 2012).



Disability Denials in 2009 in Buchanan, Oklahoma, and Dallas Counties (A-01-13-23072)                            E-2
                          Table E–2: Cases with Findings by Denial Reason
                                                                                  Capacity
                                                                  Capacity for
  SSA Policy and Procedure Not       Impairment    Insufficient                  for SGA –
                                                                  SGA - Any                   All Cases
            Followed                  Not Severe    Evidence                     Other than
                                                                     PRW
                                                                                   PRW
                              Cases that Did Not Meet One Policy and Procedure
 1.   Making a Reasonable
      Attempt to Obtain all
                                               0              0              4            8          12
      Relevant Evidence Related to
      the Claimant’s Condition
 2.   Considering Medical
                                               0              1              0            2           3
      Opinions
 3.   Asking the Treating
      Source(s) to Conduct a
                                               0              0              0            2           2
      Consultative Examination or
      Ruling the Source(s) Out
 4.   Determining the Credibility
      of the Claimant’s Statements
                                               0              0              2            0           2
      Regarding His/Her
      Symptoms
 5.   Assessing the Severity of
      Multiple Non-severe                      4              0              0            0           4
      Impairments in Combination
 6.   Determining Whether the
      Claimant Can Do PRW or                   0              0              0            1           1
      Any Other Work
             Subtotal                          4              1              6           13          24
                         Cases that Did Not Meet More Than One Policy and Procedure
 Items 4 and 5 (above)                          1            0              0             0           1
 Items 2 and 4 (above)                          0            0              1             0           1
 Items 1 and 2 (above)                          0            0              1             0           1
 Items 1 and 3 (above)                          0            0              1             0           1
             Subtotal                          1              0              3            0           4
 Total                                         5              1              9           13          28




Disability Denials in 2009 in Buchanan, Oklahoma, and Dallas Counties (A-01-13-23072)                E-3
Appendix F – MAJOR CONTRIBUTORS
Judith Oliveira, Director, Boston Audit Division

Phillip Hanvy, Audit Manager

David Mazzola, Audit Manager

Toni Paquette, Program Analyst

Katie Greenwood, Senior Auditor

Brennan Kraje, Statistician




Disability Denials in 2009 in Buchanan, Oklahoma, and Dallas Counties (A-01-13-23072)   F-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                    CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website
at http://oig.ssa.gov/audits-and-investigations/audit-reports/all. For notification of newly
released reports, sign up for e-updates at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
